20-706'?
IN THE SUPREME COURT OF THE UNITED STATES

WILMA PENNINGTON-THURMAN - PETITIONER

supreme Court, US

FILED

VS.

SANSONE GROUP DDR LLC - RESPONDENT

PETITION FOR A WRIT OF CERTIORARI

WILMA PENNINGTON-THURMAN
P. O. BOX 771201
ST. LOUIS, MISSOURI 63177
314 566-2106

QUESTIONS PRESENTED

Y/V

DEC 2 8 2020
OFFICE OF THpn CPU

The Fourth Circuit Court of Appeals in 1971 stated: “In the event of conflicting proceedings
during the interim, federal jurisdiction prevails over state jurisdiction and many courts have held
the actions to the state court to be a coram non judice and absolutely void.” Yet, the United
States District Court Eastern District of Missouri claimed it did not have jurisdiction in this case
and remanded the removal case and the Eighth Circuit Court of Appeals also dismissed
Petitioner’s appeal for lack ofjurisdiction. Should the federal courts gain jurisdiction when the
state Supreme Court refuses to recognize 28 U.S.C. 1446 (d)?
Petitioner believes her constitutional rights have been violated when she has presented five
applications to transfer her causes from the Missouri Court of Appeals, Eastern District to the
Supreme Court of Missouri. Each time the Supreme Court of Missouri issued a denial and
mandate simultaneously. Not being able to file a reconsideration, has the Supreme Court of
Missouri deprived Petitioner who is within its jurisdiction, equal protection of the laws pursuant
to the Fourteenth Amendment?

LIST OF PARTIES

Viii

[x ] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of all parties to
the proceeding in the court whose judgment is the subject of this petition is as follows:

RELATED CASES
1922-AC05827-01

Twenty-Second Judicial Circuit Court, St. Louis, Missouri

ED 108169

Missouri Court of Appeals Eastern District

4:19-CV-1432-JAR U. S. District Court Eastern District of Missouri
4:19-CV-2298-JAR

U. S. District Court Eastern District of Missouri

No. 19-2686

U. S. Court of Appeals For The Eighth Circuit

TABLE OF CONTENTS
OPINIONS BELOW
JURISDICTION......

HL

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

2..

STATEMENT OF THE CASE

3

REASONS FOR GRANTING THE WRIT
CONCLUSION...........................................

7
7

1

INDEX TO APPENDICES
APPENDIX A - Missouri Court of Appeals Eastern District ED 108169
APPENDIX B - Twenty-Second Judicial Circuit Court 1922-AC05827
APPENDIX C - Supreme Court of Missouri SC98659
APPENDIX D - U. S. District Court Eastern District 4:19-CV-1432-JAR
APPENDIX E - U. S. Court of Appeals for the Eighth Circuit No. 19-2686
APPENDIX F - U. S. District Court Eastern District 4:19-CV-2298-JAR
APPENDIX G - U.S. Code 1446
APPENDIX H - Execution Application and Order

APPENDIX I - Complaint filed Affidavit and Statement in Landlord Case

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

.. - .7

Hornung v. Master Tank & Welding Co.,
151 F. Supp. 169, 172 (D.N.D. 1957)

____ _______ -

Barker v. Wingo, 407 U.S. 514 (1972)

--------------- --

DeMoss v. Kelly Serv, Inc. 355 F. Supp. 1111, 113 (D.P.R. 1972)

7

-

7

South Carolina v. Moore, 447 F. 2d 1067 (4th Cir 1971)
Kirkbride v. Contintental Cas. Co., 933 F. 2d 729 at 732 (1991)

.

-1

FDICv. Santiago Plaza, 598 F. 2d 634, 636 (1st Cir. 1979) .. . .

STATUTES AND RULES

H

CAFA

S'

28 U. S. C. § 1257(a).

28 U.S.C. 1446(d)

...

4>

_ ,

28 U.S.C. 1446(a)

,_ _

28 U.S.C. 1447(c)

' -- - - -

_

1

„

3.*

Missouri Supreme Court Rule 74.06(b)(3)(4) .

S'

Article V, section 3 of the state's constitution _ _ _

X

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[X ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix E to the petition
and is [ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix D and F to the petition
and is
[ ] reported at

; or,

[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[X ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix A Missouri Court of Appeals Eastern District
Appendix B

Twenty-Second Judicial Circuit Court

Appendix C

Supreme Court of Missouri

to the petition and is
[ ] reported at________________________________________

; or,

[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] reported at; or,
[ ] has been designated for publication but is not yet reported; or, [ ] is unpublished.
1

JURISDICTION

<N

[X ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case was November 19, 2019 .
[X ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of Appeals on the following
date:
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted to and including
(date) on
(date) in Application No.____A______ .
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).
[ X] For cases from state courts:
The date on which the highest state court decided my case was September 29, 2020.
A copy of that decision appears at Appendix C.
[ ] A timely petition for rehearing was thereafter denied on the following date:
, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including
Application No_

(date) on

(date) in

A

The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
U. S. Code § 1446 Procedure for removal of civil actions appears at Appendix G
Pursuant to article V. section 3 of the state's constitution, the Supreme Court of Missouri has
exclusive jurisdiction - the sole legal power to hear - five types of cases on appeal:
•
•
•
•
•

The validity of a United States statute or treaty.
The validity of a Missouri statute or constitutional provision.
The state's revenue laws.
Challenges to a statewide elected official's right to hold office.
Imposition of the death penalty.

Statement of the Case

JL

On May 7, 2019, Sansone Group LLC file a petition in the Twenty-Second Judicial Circuit
Court of the City of St. Louis alleging that Appellant Wilma Pennington-Thurman (PenningtonThurman) breached a written residential lease. See Sansone Group LLC v. Wilma PenningtonThurman, No. 1922-AC05827 (22nd Jud. Cir. 2019) Sansone sought judgment under Missouri
state law for $1,800 in unpaid rent and possession. (Appendix I)
On May 24, 2019, Appellant Pennington-Thurman filed a Notice of Removal in the U. S.
District Court, stating, “This is a Counterclaim filed by Defendant Wilma Pennington-Thurman
and Those Similarly Situated...” Appellant stated she was a Senior Citizen living in subsidized
housing, that she refused to pay rent until the property was repaired, and that living at the
property had made her ill. Appellant invoked the District Court’s federal question jurisdiction
and cited various federal statutes. Case No. 4:19-CV-1432-JAR
May 24, 2019 was a Friday. Monday May 27, 2019 was Memorial Day and Appellant filed
Notice of Removal of Case to District Court with the St. Louis Circuit Court on May 28, 2019.
Sansone filed its motion in district court June 13, 2019, seeking remand pursuant to 28 U.S.C.
§ 1447. In support, Sansone argued that the state court petition is based solely upon state law,
that there is no factual basis to support diversity jurisdiction or federal question jurisdiction, and
that Pennington-Thurman cannot establish federal question jurisdiction by alleging a
counterclaim. After the District Court’s explanation of the federal courts limited jurisdiction this
case was remanded to St. Louis Circuit Court on June 27, 2019.
After remand of the case Respondent Sansone Group, Property Manager for Maryville
Gardens Apartments scheduled a Notice of Trial on July 2, 2019. Date set for July 10, 2019.
(Entry is not on the docket, because it was scheduled in the wrong court.) Appellant Pennington-

3

Thurman appeared on July 10, 2019 and filed her counterclaim that was filed in the U. S. District
Court. The Judge said, “scratch out U. S. District Court and add St. Louis Circuit Court.”
The Judge and the Attorney for Respondent explained the hearing was scheduled in the wrong
court and the date is now changed to July 17, 2019.
On July 17, 2019, Respondent Sansone Group for Maryville Gardens Apartments filed a
Consent Judgment and Notice of Judgment that included a stay until July 29, 2019.
Per agreement made outside the court room in the hall, between Appellant and the Attorney
for Maryville Gardens Apartments, Maintenance for Maryville Gardens was to inspect the
medicine cabinet for mold and mildew and address issues mention in the counterclaim. Appellant
was to dismiss the counterclaim.
Appellant Pennington-Thurman never agreed to give up possession of the premises after
paying $3,292.00. The Consent Judgment was explained differently that what was entered into
the record.
On July 29,2019, Respondent Maryville Gardens had not completed the issues stated in the
counterclaim. Respondent had only checked the medicine cabinet and the smell of mold and
mildew was still present in the apartment.
Appellant did not pay the $3,292.00 because the problems still existed.
On August 5, 2019, Appellant removed the case again to the U. S. District Court Eastern
District of Missouri. The action filed under the Class Action Fairness Act (CAFA).
On August 6, 2019 Appellant filed the second notice of Removal of Case To U.S. District Court
with St. Louis City Circuit Court. (On the docket it states “Letter from Defendant Filed” Also on

Y

August 6, 2019 Respondent filed an Order for Eviction. Respondent did not have a valid order
for possession pursuant to § 1446(d) and, also, Appellant did not receive a notice in the mail that
Respondent had filed eviction proceedings. Mo. Sup. Court Rule 43.01
The second removal case to district court was assigned a new case number as 4:19-CV-2298JAR. After the court’s explanation of CAFA rules the district court remanded the case to the
22nd Judicial Circuit Court on August 9, 2019, but it did not appear on the docket.
On August 14, 2019, Appellant Wilma Pennington-Thurman filed a “Motion To Set Aside
Judgment Entered July 17, 2019 Pursuant to Missouri Supreme Court Rule 74.06(b)(3)(4).” (On
the docket it states “Letter from Defendant Filed”)
The Twenty-Second Judicial Circuit Court denied Appellant’s motion to set aside the
judgment. In Appellant’s motion to set aside the judgment, she explained to the Court that
Plaintiff Maryville Gardens Apartments represented by Sansone Group did not fulfill their part
of the agreement they entered into with Appellant.
The Judge and the Attorney for Maryville Gardens Patrick T. McLaughlin told Appellant she
had until August 19, 2019 to pay the judgment or move out.
This case was filed in St. Louis City Circuit Court with Judge Calea Stovall-Reid. When
Appellant appeared in Court on August 6, 2019 to file the second notice of removal to the
District Court, Judge Craig K. Higgins was presiding. He said, “he was not going to overrule
another Judge and stop the eviction because of the removal filed today.”
The first remand order to the 22nd Judicial Circuit Court was issued June 27, 2019 by the
district court pursuant to 28 U.S.C. 1447(c). Case 4:19-CV-1432-JAR.

On November 19, 2019 the Eighth Circuit Court of Appeals dismissed Petitioners appeal for
lack ofjurisdiction.
On August 9, 2019 the district court issued its second remand order. The court stated
“Because the court has previously found it lacks subject matter jurisdiction over this case (see
Pennington-Thurman I, No. 4:19-CV-1432-JAR at ECF 8 (E.D. Mo. Jun 27, 2019)), and because
defendant, a pro se litigant, cannot bring a class action-counterclaim against plaintiff pursuant to
CAFA.
When Judge Craig K. Higgins said, “he was not going to overrule another judge and stop the
eviction because of the removal filed today” Petitioner appealed his decision to the Missouri
Court of Appeals Eastern District. Case No. ED 108169.
Petitioner appealed pursuant to 28 U.S.C. 1446(d) “Notice to Adverse Parties and State
Court” (Appendix G) The Appeals Court E. D. said in so many words that Petitioner
Pennington-Thurman should have filed trial de novo instead of removing the case to the district
court. The appeal was dismissed July 20, 2020. (Appendix A)
Petitioner Pennington-Thurman filed for a motion for a rehearing or transfer to the Supreme
Court of Missouri. The motion was denied. Petitioner applied directly to the Supreme Court. On
September 29, 2020 the Supreme Court “ordered that the said application be, and the same is
hereby denied.” The docket reads:

09/29/2020

Disp-App Tran to SC Denied
MANDATE SENT TO CLERK OF THE MISSOURI COURT OF APPEALS
VIA ELECTRONIC MAIL, TO APPELLANT VIA REGULAR MAIL, AND
TO ALL COUNSEL OF RECORD VIA THE MISSOURI EFILING SYSTEM.

4

Petitioner could not file for a reconsideration. The time to file was closed off. I do not know if
it was because I am pro se or not, either way Citizens of Missouri should be allowed the full
process of the law.
Reasons for Granting the Petition
The trial court continued with an eviction order that was filed after the district court acquired
jurisdiction of the action. The importance to Citizens of Missouri that face eviction is the proper
judicial procedures of complaints filed against them in circuit court.
The U. S. Code, 28 U.S.C. § 1446(a) states:
A defendant or defendants desiring to remove any civil action from a State court shall file in the
district court of the United States for the district and division within which such action is pending
a notice of removal signed pursuant to Rule 11 of the Federal Rules of Civil Procedure and
containing a short and plain statement of the grounds for removal, together with a copy of all
process, pleadings, and orders served upon such defendant or defendants in such action.
It was Petitioner’s desire to remove the action from the Twenty-Second Judicial Circuit Court
to the U.S. District Court Eastern District of Missouri and the district court possessed the power
to invalidate the trial court proceeding that had taken place between the time that Petitioner had
filed the removal petition in state court. See Hornung v. Master Tank & Welding Co., 151 F.
Supp. 169, 172 (D.N.D. 1957). The district only focused on it’s jurisdiction and not that of the
state court that was continuing with the eviction process despite the case being removed.
Little question exists that federal jurisdiction attaches when a party files the removal petition
in federal court. See DeMoss v. Kelly Serv, Inc. 355 F. Supp. 1111, 113 (D.P.R. 1972)
(jurisdiction of federal court attaches when party files removal petition), aff d 493 F. 2d 1012 (1st
Cir. 1974)
U. S. Code § 1446(d) is a Notice to Adverse Parties and State Court. -

7

“Promptly after the filing of such notice of removal of a civil action the defendant or defendants
shall give written notice thereof to all adverse parties and shall file a copy of the notice with the
clerk of such State Court, which shall effect the removal and the State Court shall proceed no
further unless and until the case is remanded.”
Petitioner filed the second removal on August 5, 2019 and Respondent Sansone Group filed
the eviction application and order on August 6, 2019. (See Appendix H) The trial court did not
adhere to this statute. Pursuant to § 1446(d) the eviction application and order is void and the
courts refused to follow the law.
A defendant “who fails in an attempt to remove on the initial pleadings can file a removal
petition when subsequent pleadings or events reveal a new and different ground for removal”
Kirkbride v. Contintental Cas. Co., 933 F. 2d 729 at 732 (1991) (quoting FDICv. Santiago
Plaza, 598 F. 2d 634, 636 (1st Cir. 1979)
Petitioner brought this same argument to the Missouri Court of Appeals. In the appellate
court’s dismissal, the court states “Appeals by aggrieved parties from judgments in rent and
possession cases tried without a jury before an associate circuit court judge are not statutorily
authorized. Where there is no statute providing a right to appeal, none exists. Reynolds, 589
S.W. 3d at 678-79. An appeal brought without statutory approval “confers no authority upon an
appellate court except to enter an order dismissing the appeal.” The question after this statement
is “why not?”
Even if state law creates a party’s causes of action, federal question jurisdiction may still be
found where the party’s right to relief requires resolution of a substantial question of federal law.
(See Franchise Tax Bd, 463 U.S. at 13)

/

The trial court judge proceeded with the eviction when he agreed with the Plaintiff and said
Petitioner had until August 19, 2019 to pay or move. The judge was acting on an eviction
application that was void. It was filed when the court had no jurisdiction.
In South Carolina v. Moore, 447 F. 2d 1067 (4th Cir 1971) Circuit Judge Clement
Haynsworth observed that “Since the adoption of § 1446, it has been uniformly held that the
state court loses all jurisdiction to proceed immediately upon the filing of the petition in the
federal court and a copy in the state court. Under these holdings, any proceeding in the state
court after the filing of the petition and prior to a federal remand order are absolutely void,
despite subsequent determination that the removal petition was ineffective.”
The Missouri Appeals Court dismissed the case because there is no statutory approval and the
Supreme Court of Missouri wants to dismiss the case and state that the said application be, and
the same is hereby denied.
CONCLUSION
Citizens of Missouri have long been subjected to the arbitrary rulings of the courts.
The appeal to the Supreme Court of Missouri was not about a statute providing a right to an
appeal, it was about the Eastern District Appellate Court not addressing the fact that the trial
court acted upon a voided order.
One of the five types of cases the Supreme Court will hear on appeal is the validity of a
Missouri statute or constitutional provision. Petitioner’s appeal to the Supreme Court should not
have been dismissed, because there is no statute for a civil case before an associate circuit court
judge. It is the Supreme Court that makes the rules and statutes that the courts adhere to, but in
this case the Supreme Court failed to act for the Citizens of Missouri.

f

Petitioner’s second question stated “Petitioner believes her constitutional rights have been
violated when she has presented five applications to transfer her causes from the Missouri Court
of Appeals, Eastern District to the Supreme Court of Missouri. Those cases are SC95620,
SC97277, SC97836, SC96526 and this current case SC98659. All cases were denied. Quite a
pattern against one pro se litigant. Where is the justice where a pro se litigant cannot be heard?
The right to hearing is that which resides in both the Sixth Amendment as well as the
Fourteenth Amendment. A right to hearing entails that an individual maintain and be afforded
the legal right to be heard in the venue of a court of law with adequate due process attached. In
terms of the Sixth Amendment, individuals possess rights to a speedy as well as a public trial.
In relation to a speedy trial, such as in accordance with Supreme Court case Barker v. Wingo,
407 U.S. 514 (1972) there existed the following qualifications for determining if one’s right to a
speedy trial had been violated. These include the “length of delay,” “reason for delay,” “time and
manner of rights,” and “amount of prejudice by which delay may have occurred.” Delays
surpassing that of a year or more may be seen as a violation and should apply to civil cases as
well.
In terms of the right to hearing, due process represents an area in direct connection to it. This
term entails that persons be afforded all the legal rights they deserve in accordance with Federal
law. It places the judges at the forefront of such proceedings in determining one’s situation.
Residing within the Fourteenth Amendment, it affords rights to every State. In connection to due
process in connection to criminal and civil procedures, they are governed under the institution of
the Bill of Rights.

(0

Petitioner along with Missouri Citizens do not have the right to be heard in the Supreme
Court of Missouri. The U. S. Supreme Court allows a pro se litigant to file their case and file a
reconsideration. The Supreme court of Missouri does not allow this same right.
The petition for a writ of certiorari should be granted.
Respectfully submitted.
c

Wilma Penningten-Thurman
P. O. Box 771201
St. Louis, Missouri 63177
314 566-2106

No.
IN THE SUPREME COURT OF THE UNITED STATES

K

